BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of Law
Professors as Amici Curiae in Support of Petitioners in
21-381, Tzvi Weiss, et al. v. National Westminster Bank
PLC, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
and e-mail service to the following parties listed below,
this 8th day of October 2021:
Thomas C. Goldstein
Goldstein & Russell, P. C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tgoldstein@goldsteinrussell.com

Counsel for Petitioners
Jonathan I. Blackman
Cleary, Gottlieb et. al.
One Liberty Plaza
New York, NY 10006
(212) 225-2490
jblackman@cgsh.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

I Suite 102

Cincinnati, Ohio 45249
I

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

Stephen I. Vladeck
Counsel of Record
727 E. Dean Keeton Street
Austin, TX 78705
(512) 475-9198
svladeck@law.utexas.edu
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 8, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

tJ GqJ la.I(' f>f

ddL IJ . fJ~

Notary Public
[seal]

c)--Oc}-f

'

